Case: 18-1418

Document: 00117583495

Page: 1

Date Filed: 04/30/2020

Entry ID: 6335562

United States Court of Appeals
For the First Circuit
No. 18-1418
UNITED STATES OF AMERICA,
Appellee,
v.
DAVID LÓPEZ,
a/k/a CILINDRO, a/k/a VILLANO,
Defendant, Appellant.

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF MASSACHUSETTS
[Hon. F. Dennis Saylor IV, U.S. District Judge]

Before
Howard, Chief Judge,
Torruella and Selya, Circuit Judges.

Michael M. Brownlee and The Brownlee Law Firm, P.A., on brief
for appellant.
Andrew E. Lelling, United States Attorney, and Randall E.
Kromm, Assistant United States Attorney, on brief for appellee.

April 30, 2020

Appendix A

App. 1

Case: 18-1418

Document: 00117583495

Page: 2

SELYA, Circuit Judge.

Date Filed: 04/30/2020

Entry ID: 6335562

The backdrop for this sentencing

appeal is the government's relentless pursuit of a notorious
criminal gang, famously known as MS-13. The appeal itself requires
us to answer a question of first impression in this circuit:

when

a defendant is convicted of racketeering conspiracy under the
Racketeer Influenced and Corrupt Organizations Act (RICO), 18
U.S.C. § 1962(d), does the imposition of a role-in-the-offense
enhancement, see USSG §3B1.1, depend upon the defendant's role in
the racketeering enterprise as a whole or, instead, upon his role
in the discrete acts of racketeering activity that underpin the
RICO conviction? We conclude that such an enhancement is dependent
upon the defendant's role in the criminal enterprise as a whole.
We further conclude that the court below supportably found that
defendant-appellant

David

López

occupied

a

managerial

or

supervisory role in the racketeering enterprise involved here.
Accordingly, we affirm the challenged sentence.
I. BACKGROUND
"Because this appeal follows a guilty plea, we draw the
facts from . . . the change-of-plea colloquy, the unchallenged
portions of the presentence investigation report (PSI Report), and
the transcript of the disposition hearing."
Ocasio-Cancel, 727 F.3d 85, 88 (1st Cir. 2013).

United States v.
The MS-13 street

gang is a Salvadorian-based, transnational criminal enterprise
with a pervasive foothold in the United States, where it operates

- 2 App. 2

Case: 18-1418

Document: 00117583495

Page: 3

Date Filed: 04/30/2020

Entry ID: 6335562

a myriad of subgroups, called "cliques," in no fewer than fortysix states.

MS-13 cliques hold meetings at which, among other

things, they collect dues, plan criminal exploits, and hash out
membership issues.

Each clique typically has two chieftains:

a

"First Word," who is responsible for organizing and directing the
clique, and a "Second Word," who serves as the First Word's alter
ego and assumes those duties in the First Word's absence.
There is also what amounts to a caste system within each
clique.

Members, known as "homeboys," are on the upper rungs of

the hierarchy.
must

According to the government, an aspirant usually

"participate

in

the

killing

of

a

rival

suspected informant" to achieve that status.

gang

member

or

Prospective members,

called "paros," are allowed to "hang around" with members.

Paros

who are deemed to be adequately trustworthy are promoted to
"chequeos," a status that affords them increased access to members.
In 2013 and 2014, several young chequeos and paros,
including the appellant, began forming a new MS-13 clique in
Chelsea, Massachusetts.

This group, though, was without a leader.

In the spring of 2014, centralized MS-13 command staff sent Rafael
Leoner-Aguirre (Leoner), a homeboy, from Michigan to Massachusetts
to organize the fledgling Chelsea group into a sanctioned clique.
The appellant proved to be an active and trustworthy disciple, and
he was promoted to chequeo as the clique evolved under Leoner's
direction.

- 3 App. 3

Case: 18-1418

Document: 00117583495

Page: 4

Date Filed: 04/30/2020

Entry ID: 6335562

In April of 2014, federal authorities arrested Leoner
and charged him with attacking members of a rival gang. See United
States v. Leoner-Aguirre, 939 F.3d 310, 313-14 (1st Cir. 2019),
cert.

denied,

140

S.

Ct.

820

(2020).

Notwithstanding

his

immurement, the Chelsea clique continued to regard Leoner as its
First Word.

Meanwhile, the appellant took over as the de facto

leader of the clique on the streets, directing the clique's illicit
activities with Leoner's oversight.
On May 29, 2014, the appellant and a fellow clique
member, Daniel Menjivar, attacked a member of a rival gang, Denys
Perdomo Rodriguez (Perdomo), at a bus stop in Chelsea.
initiated the attack, stabbing Perdomo repeatedly.

Menjivar

As Perdomo lay

bleeding on the ground, the appellant shot him several times.
Although grievously wounded, Perdomo survived.
Menjivar was subsequently arrested for his role in the
Perdomo affair.

Upon learning of Menjivar's arrest, the appellant

fled to New Jersey.

Once there, he was promoted to homeboy for

his part in the assault on Perdomo.
We fast-forward to April of 2015.

Around that time, the

authorities learned that the Chelsea clique was planning to kill
one of its own members, CW-2, premised on the mistaken belief that
he was then a police informant.

The investigators also learned of

the clique's efforts to bring the appellant back from New Jersey
to

carry

out

the

murder.

In

seeming

confirmation

of

this

- 4 App. 4

Case: 18-1418

Document: 00117583495

Page: 5

Date Filed: 04/30/2020

Entry ID: 6335562

intelligence, investigators spotted the appellant seated in a car
near CW-2's home on April 27. He was accompanied by another clique
member and a government cooperator (CW-1).

In a conversation

recorded at that time, the appellant indicated that the clique had
the "go ahead" to kill CW-2 and proposed alternative methods for
carrying out the slaying (such as cutting his throat or strangling
him with a wire).
On April 28, CW-2 — who by then had begun cooperating
with the government — testified before a federal grand jury as
part of its probe into MS-13.

That same day, ongoing surveillance

recorded a conversation between the appellant and another clique
member, memorializing their attempts to find and murder CW-2.
In due course, the grand jury handed up a nineteen-count
fifth superseding indictment charging sixty-one MS-13 associates
(including

the

appellant)

with

a

golconda

of

racketeering

activities, firearms and drug offenses, and sundry other crimes.
Pertinently, the grand jury charged the appellant with conspiracy
to conduct enterprise affairs through a pattern of racketeering
activity, in violation of 18 U.S.C. § 1962(d).

The indictment

listed a number of specific racketeering acts undergirding the
broader conspiracy.

With respect to the appellant, the specified

acts were the attack on Perdomo and the planned execution of
CW-2.

- 5 App. 5

Case: 18-1418

Document: 00117583495

Page: 6

Date Filed: 04/30/2020

Entry ID: 6335562

Although he initially maintained his innocence, the
appellant changed his plea to the sole count against him shortly
before his scheduled trial. The district court accepted his guilty
plea.

The court then ordered the preparation of a PSI Report

which, when received, led to a wrangle over a recommended threelevel role-in-the-offense enhancement under USSG §3B1.1(b).
The appellant objected to the PSI Report's application
of the role enhancement and, relatedly, to its calculation of the
guideline sentencing range (GSR).

He asserted that the government

had not established that he was a manager or supervisor with
respect to the assault on Perdomo because he was only a chequeo,
not a homeboy, when that assault occurred.

Therefore, the PSI

Report had artificially inflated both his total offense level and
GSR.
In its sentencing memorandum, the government agreed with
the probation officer's conclusion that a three-level enhancement
for

the

appellant's

role

in

the

offense

was

warranted.

It

disagreed, though, with the probation officer's methodology for
arriving at the enhancement.

The probation officer had analyzed

the appellant's role in each of the predicate racketeering acts
separately and concluded that the enhancement only applied to the
plot to murder CW-2.

The government countered that the role

enhancement should apply across the board based on the appellant's
managerial role in the overall conspiracy.

- 6 App. 6

Case: 18-1418

Document: 00117583495

Page: 7

Date Filed: 04/30/2020

Entry ID: 6335562

At the disposition hearing, the court acknowledged the
appellant's objection to the conclusion that he "was a manager or
supervisor."

The court proceeded to overrule this objection

because the unchallenged portions of the PSI Report adumbrated
facts sufficient to support a finding that the appellant had acted
as a manager or supervisor of the clique as a whole.

The court

also acknowledged that the government had raised a "subsidiary
issue" concerning how the relevant guideline provision should be
construed and applied.

Even so, the court was content to say that

the appellant was a manager or supervisor of the enterprise as a
whole

and,

thus,

it

effectively

adopted

interpretation of the relevant guideline.

the

government's

The appellant objected,

noting that if his interpretation of the relevant guideline were
to be employed, both the offense level and the corresponding GSR
would be reduced.
After hearing arguments of counsel and the appellant's
allocution, the court imposed the statutory maximum sentence of
240 months. See 18 U.S.C. § 1963(a). This timely appeal followed.
II. ANALYSIS
"Appellate review of a criminal defendant's claims of
sentencing error involves a two-step pavane."
Miranda-Díaz,

942

F.3d

33,

39

(1st

Cir.

United States v.

2019).

Under

this

framework, we first examine any claims of procedural error.

See

United States v. Matos-de-Jesús, 856 F.3d 174, 177 (1st Cir. 2017).

- 7 App. 7

Case: 18-1418

Document: 00117583495

Page: 8

Date Filed: 04/30/2020

Entry ID: 6335562

When examining such claims, we evaluate the district court's
interpretation and application of the sentencing guidelines de
novo.

See United States v. Ruiz-Huertas, 792 F.3d 223, 226 (1st

Cir. 2015).

"If the sentence passes procedural muster, we then

address any challenge to its substantive reasonableness."
de-Jesús, 856 F.3d at 177.

Matos-

Here, however, the appellant does not

challenge the substantive reasonableness of his sentence.
With this framework in mind, we tackle the appellant's
contention that his sentence was procedurally unreasonable because
the district court misinterpreted the sentencing guidelines when
calculating his total offense level. His principal claim of error,
which

engenders

de

novo

review,

impression in this circuit:

poses

a

question

of

first

when a defendant is convicted of

racketeering conspiracy under RICO, does the imposition of a rolein-the-offense enhancement depend upon the defendant's role in the
racketeering enterprise as a whole or, instead, upon his role in
the discrete acts of racketeering activity that underpin the RICO
conviction?

Answering this question requires us to explore the

interplay between USSG §2E1.1 and USSG §3B1.1.
Section 2E1.1 provides a roadmap for calculating the
offense

level

conspiracy.

applicable

to

an

offender

convicted

of

RICO

Specifically, it states that a defendant's base

offense level should be the greater of nineteen or "the offense
level applicable to the underlying racketeering activity."

USSG

- 8 App. 8

Case: 18-1418

Document: 00117583495

Page: 9

Date Filed: 04/30/2020

Entry ID: 6335562

§2E1.1. This offense level may be adjusted upward if the defendant
qualifies for one or more of various sentencing enhancements.

See

USSG §2E1.1 cmt. n.1.
In the case at hand, the district court determined that
the appellant qualified for a role-in-the-offense enhancement
under section 3B1.1(b), which provides for a three-level upward
adjustment "[i]f the defendant was a manager or supervisor (but
not an organizer or leader) and the criminal activity involved
five or more participants or was otherwise extensive."

There is

an

for

open

question,

though,

as

enhancement should be laid.
section
quandary.

2E1.1,

furnishes

to

how

the

foundation

the

Application Note 1, appended to

some

direction

for

resolving

this

That note states:

Where there is more than one underlying offense, treat
each underlying offense as if contained in a separate
count of conviction for the purposes of subsection
(a)(2).
To determine whether subsection (a)(1) or
(a)(2) results in the greater offense level, apply
Chapter Three, Parts A, B, C, and D to both (a)(1) and
(a)(2). Use whichever subsection results in the greater
offense level.
USSG §2E1.1 cmt. n.1.
Relying on this language and advice from the Sentencing
Commission's

Office

of

Education

and

Practices

(OEP),

the

probation officer examined the predicate acts underpinning the
RICO conspiracy conviction (the attack on Perdomo and the planned
attack on CW-2) independently to determine the applicability of

- 9 App. 9

Case: 18-1418

Document: 00117583495

Page: 10

Date Filed: 04/30/2020

the putative role-in-the-offense enhancement.

Entry ID: 6335562

The district court

was not so sanguine, observing that such an approach would lead to
anomalous results:

it "would actually put a person in a better

position if [he was] a leader of a racketeering conspiracy but
didn't personally participate in the individual acts or each of
those acts involved five or fewer people."

Thus, the court

expressed its general agreement with the approach adopted by the
Second and Seventh Circuits — an approach that assays a defendant's
role in the overarching conspiracy to determine the applicability
of any role-in-the-offense enhancement.

See United States v.

Ivezaj, 568 F.3d 88, 99-100 (2d Cir. 2009); United States v.
Damico, 99 F.3d 1431, 1437-38 (7th Cir. 1996).
Although

the

court

suggested

that

it

would

not

definitively decide which interpretive approach was correct, it
used the approach employed by the Second and Seventh Circuits to
calculate the appellant's GSR.

It found that the appellant was a

manager or supervisor of the criminal enterprise as a whole and
applied

the

three-level

enhancement

solely

on

that

basis.

According to the appellant, the district court's suggestion that
it

did

not

have

to

resolve

this

dispute

about

the

proper

interpretation of section 2E1.1 was procedural error because the
two approaches resulted in different GSRs.

Since the district

court effectively adopted the government's interpretation of the
relevant

guideline

and

effectively

rejected

the

appellant's

- 10 App. 10

Case: 18-1418

Document: 00117583495

Page: 11

Date Filed: 04/30/2020

Entry ID: 6335562

interpretation, the claim of procedural error is properly before
us.
In this court, as below, the appellant urges us to adopt
the interpretive modality fashioned by the probation officer.

He

submits that the plain language of Application Note 1 mandates
that

a

role-in-the-offense

enhancement

must

be

calibrated

according to a RICO defendant's role in the particular predicate
acts underlying the charged conspiracy.

The fact that the OEP

endorsed this methodology, the appellant says, is a compelling
indication that this is the better approach.
The government demurs, relying heavily on the Seventh
Circuit's

decision

in

Damico.

There,

Damico

—

having

been

convicted of RICO conspiracy — assigned error to the district
court's

application

of

a

four-level

enhancement

under

USSG

§3B1.1(a) based upon his role in the RICO enterprise as a whole.
See Damico, 99 F.3d at 1435.

Much like the appellant, Damico

pinned his hopes on Application Note 1.

See id. at 1435-36.

The

Seventh Circuit rejected Damico's argument, noting that it failed
to "account for the fact that section 2E1.1's sole purpose is to
establish the base offense level for a RICO offense, not the
adjusted offense level."

Id. at 1437 (emphasis in original).

Consequently,

interpreted

the

court

Application

Note

1

as

requiring that the underlying offenses be treated separately only
for the purpose of determining the base offense level applicable

- 11 App. 11

Case: 18-1418

Document: 00117583495

Page: 12

to the overarching RICO conspiracy.
court

held

Application

"that
Note

1

the

Date Filed: 04/30/2020

See id.

In a nutshell, the

predicate-by-predicate

applies

. . .

only

Entry ID: 6335562

for

approach

the

purpose

of
of

establishing a RICO defendant's base offense level, and not for
the purpose of applying the Chapter Three adjustments."

Id. at

1438.
We find the reasoning in Damico persuasive.

The weight

of the appellant's attempt to walk a tightrope between the RICO
conspiracy conviction itself and the underlying predicate acts is
more than Application Note 1 can bear.

Recognizing as much, other

circuits have declined defendants' invitations to place their
imprimatur on such an exercise in funambulism. Indeed, every court
of appeals that has spoken to the issue has followed Damico's
lead.1

See Ivezaj, 568 F.3d at 99-100; United States v. Yeager,

210 F.3d 1315, 1317 (11th Cir. 2000) (per curiam); United States
v. Coon, 187 F.3d 888, 899 (8th Cir. 1999).
A salient reason for this unanimity is that the Damico
approach

fits

seamlessly

with

an

important

policy

concern

undergirding the RICO statute. When Congress enacted RICO in 1970,

1

The OEP guidance to which the appellant adverts is not a
significant counterweight to this unbroken chain of authority.
The OEP guidance is merely advisory and not binding upon the
courts. Cf. United States v. Carrozza, 4 F.3d 70, 78 n.6 (1st
Cir. 1993) (explaining that instructions published by Sentencing
Commission in informational booklet are not meant to bind the
courts or the parties in any given case).

- 12 App. 12

Case: 18-1418

Document: 00117583495

Page: 13

Date Filed: 04/30/2020

Entry ID: 6335562

it was particularly concerned with bringing to justice leaders of
organized crime syndicates (such as the Mafia and La Cosa Nostra),
who were often able to avoid prosecution and "flout the best
efforts of . . . law enforcement and judicial authorities" by
hiding behind underlings.

116 Cong. Rec. 970 (1970).

In light of

this policy, it seems right as rain to conclude that a defendant's
role in the overarching conspiracy, rather than his role in
discrete predicate acts, constitutes the critical benchmark for
determining whether a role-in-the-offense enhancement is warranted
under section 3B1.1.
To seal the deal, the text of Application Note 1 directs
courts to apply Chapter 3 adjustments — including enhancements for
a defendant's role in the offense — "to both (a)(1) and (a)(2)."
USSG §2E1.1 cmt. n.1 (emphasis supplied).
though,

does

not

require

an

examination

Subsection (a)(1),
of

the

defendant's

underlying racketeering activities but, rather, simply assigns a
base offense level of nineteen.

In considering the applicability

of a role-in-the-offense enhancement to this base offense level,
a court must look to the defendant's role in an enterprise as a
whole.

It would defy common sense to take a different tack with

respect to subsection (a)(2) and examine individual predicates
instead of the enterprise as a whole.
Should more be needed — and we doubt that it is — the
approach advanced by the appellant would lead to incongruous

- 13 App. 13

Case: 18-1418

Document: 00117583495

results.

If,

say,

the

Page: 14

Date Filed: 04/30/2020

application

of

a

Entry ID: 6335562

role-in-the-offense

enhancement depended upon assessing individual predicate acts in
a vacuum, a defendant who served as the kingpin of even the most
sprawling criminal enterprise could nonetheless escape a role-inthe-offense enhancement simply because each of the predicate acts
underlying his conviction involved fewer than five participants
and was not otherwise extensive.
Damico, 99 F.3d at 1437.
"it

makes

little

sense

See Ivezaj, 568 F.3d at 99;

We agree with the Second Circuit that
to

allow

a

defendant

who

acts

in

a

leadership capacity in a wide-ranging criminal enterprise to have
his offense level adjusted on the basis of his participation in
discrete racketeering acts."

Ivezaj, 568 F.3d at 99.

To prattle on about this issue would serve no useful
purpose.

We

hold

that

when

a

defendant

is

convicted

of

racketeering conspiracy under 18 U.S.C. § 1962(d), the imposition
of a role-in-the-offense enhancement under USSG §3B1.1(b) depends
upon his role in the racketeering enterprise as a whole, not upon
his role in the discrete predicate acts that underpin the charged
conspiracy.
This does not end our odyssey.

The appellant argues, in

the alternative, that even if we accept the approach endorsed by
Damico and its progeny — as we do — the district court's conclusion
that he served as a manager or supervisor of the overarching RICO

- 14 App. 14

Case: 18-1418

Document: 00117583495

Page: 15

enterprise lacked record support.2

Date Filed: 04/30/2020

Entry ID: 6335562

It is to this argument that we

now turn.
This claim of error is waived.

After all, the appellant

never raised it in his opening brief on appeal — and it is settled
beyond

hope

of

contradiction

that

arguments

appellant's opening brief are deemed abandoned.

not

made

in

an

See, e.g., United

States v. Fraser, 388 F.3d 371, 377 (1st Cir. 2004) (per curiam);
Sandstrom v. ChemLawn Corp., 904 F.2d 83, 86 (1st Cir. 1990).

And

even

the

though

the

appellant

challenged

the

sufficiency

of

district court's factual findings regarding his role in the overall
enterprise in his reply brief, that was too little and too late.
By then, the claim of error had been waived.
Waiver aside, the claim of error lacks force.

It hinges

on the supportability of the district court's factual findings,
but the appellant must pass over a higher-than-usual hurdle in
order to set aside those findings.

We explain briefly.

To begin, the appellant does not question that the
racketeering enterprise (the clique), taken as a whole, involved
five or more participants.

Instead, he trains his fire on the

2

As part of this argument, the appellant alleges that "the
district court never made a finding regarding" the appellant's
role in the enterprise as a whole. This allegation is belied by
the record, as the court unequivocally stated that it was "easily
satisfied" that the appellant was "a de facto manager" of the
enterprise, given that he was "the only homeboy in the clique who
was on the streets" during the pertinent time frame.

- 15 App. 15

Case: 18-1418

Document: 00117583495

district

court's

factual

Page: 16

finding

Date Filed: 04/30/2020

that

he

was

supervisor within the hierarchy of the clique.
rub:

a

Entry ID: 6335562

manager

or

But there is a

he did not object below to the district court's factual

finding that he occupied such a managerial or supervisory role.3
We therefore review his claim exclusively for plain error.

See

United States v. Flete-Garcia, 925 F.3d 17, 37 (1st Cir.), cert.
denied, 140 S. Ct. 388 (2019); United States v. Duarte, 246 F.3d
56, 60 (1st Cir. 2001).
Review for plain error is not appellant-friendly.
"entails four showings:

It

(1) that an error occurred (2) which was

clear or obvious and which not only (3) affected the defendant's
substantial rights, but also (4) seriously impaired the fairness,
integrity, or public reputation of judicial proceedings."
246 F.3d at 60.

Duarte,

The proponent of plain error must carry the burden

of establishing each of these four elements.

See Miranda-Díaz,

942 F.3d at 39.
In this instance, the district court relied upon the
facts disclosed in an unchallenged paragraph of the PSI Report.4

3

To be sure, the appellant objected to construing the
relevant guideline in a way that made his role vis-à-vis the
racketeering enterprise a critical determinant in the enhancement
calculus. This objection, though, raised a claim of legal error,
separate and apart from the claim of factual error that he now
advances.
4

Although the appellant did object to certain portions of
the PSI Report, the district court did not rely on those disputed
- 16 App. 16

Case: 18-1418

Document: 00117583495

Page: 17

Date Filed: 04/30/2020

Entry ID: 6335562

It is well-established that facts limned in uncontested portions
of a PSI Report are "ordinarily 'considered reliable evidence for
sentencing purposes.'"

United States v. Carbajal-Váldez, 874 F.3d

778, 783 (1st Cir. 2017) (quoting United States v. Morillo, 8 F.3d
864, 872 (1st Cir. 1993)), cert. denied, 138 S. Ct. 2586 (2018).
So it is here.
The facts gleaned from this undisputed paragraph in the
PSI Report adequately support the district court's description of
the appellant's role in the clique.

Taking those facts as true,

the court had a solid foundation for finding that the appellant
served

as

a

"de

facto

manager"

of

the

clique

after

the

incarceration of the clique's First Word in April of 2014 and acted
in that capacity through the commission of the racketeering acts
described in the count of conviction.
Although the appellant was not in full command of the
clique — Leoner, even though imprisoned, remained the First Word
— it does not follow that the appellant was ineligible for a rolein-the-offense enhancement under section 3B1.1(b).

See United

States v. Savoie, 985 F.2d 612, 616 (1st Cir. 1993).

We have made

pellucid that "[a] defendant need not be the highest ranking member
of a criminal troupe in order to be a manager or supervisor" of
that troupe.

Id.

Such an interpretation is entirely consistent

paragraphs in finding that the appellant acted in a managerial or
supervisory capacity vis-à-vis the clique.

- 17 App. 17

Case: 18-1418

Document: 00117583495

Page: 18

Date Filed: 04/30/2020

Entry ID: 6335562

with the text of the relevant guideline: section 3B1.1 underscores
that the managerial role enhancement, "as opposed to other upward
role-in-the-offense adjustments, appl[ies] to defendants who were
managers or supervisors, but not organizers or leaders."

Id.

(emphasis in original); see USSG §3B1.1(b).
Given the factual support made manifest in the record,
we discern no clear or obvious error in the challenged ruling.
Consequently, we hold that the district court's factual finding
that the appellant played a managerial or supervisory role in the
RICO conspiracy was not plainly erroneous.

The role-in-the-

offense enhancement was, therefore, appropriate.
III. CONCLUSION
We need go no further. For the reasons elucidated above,
the sentence is

Affirmed.

- 18 App. 18

Case 1:15-cr-10338-FDS Document 2381 Filed 05/01/18 Page 1 of 7
AO 245B (Rev. /1)

Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
'LVWULFWRI0DVVDFKXVHWWV
)
)
)
)
)
)
)
)
)

UNITED STATES OF AMERICA

v.
DAVID LOPEZ

THE DEFENDANT:
G
✔ pleaded guilty to count(s)

JUDGMENT IN A CRIMINAL CASE
Case Number: 1: 15 CR 10338

- 027 - FDS

USM Number: 70400-050
Edward L. Hayden
Defendant’s Attorney

Count 2 of the Fifth Superseding Indictment

G pleaded nolo contendere to count(s)
which was accepted by the court.

G was found guilty on count(s)
after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:
Title & Section
18 U.S.C. § 1962(d)

Nature of Offense
Conspiracy to Conduct Enterprise Affairs through a Pattern of
Racketeering Activity

7

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

Offense Ended

Count
2sss

01/26/16

of this judgment. The sentence is imposed pursuant to

G The defendant has been found not guilty on count(s)
G Count(s)
✔

2, 2s, 2ss

G is

✔
G are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.

4/26/2018
Date of Imposition of Judgment

/s/ F. Dennis Saylor
Signature of Judge

The Honorable F. Dennis Saylor IV
Judge, U.S. District Court
Name and Title of Judge

5/1/2018
Date

Appendix B

App. 19

Case 1:15-cr-10338-FDS Document 2381 Filed 05/01/18 Page 2 of 7
AO 245B (Rev./1) Judgment in Criminal Case
Sheet 2 — Imprisonment
Judgment — Page

DEFENDANT: DAVID LOPEZ
CASE NUMBER:

1: 15 CR 10338

2

of

7

- 027 - FDS

IMPRISONMENT
The defendant is hereby committed to the custody of the Federal Bureau of Prisons to be imprisoned for a total
term of:

240 months.

Defendant shall receive credit for time served.

✔ The court makes the following recommendations to the Bureau of Prisons:
G

The Court makes a judicial recommendation that the defendant participate in substance abuse treatment while in Bureau of
Prisons’ custody.
✔
The defendant is remanded to the custody of the United States Marshal.
G

G The defendant shall surrender to the United States Marshal for this district:
G at

G a.m.

G p.m.

on

.

G as notified by the United States Marshal.
G The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
G before 2 p.m. on

.

G as notified by the United States Marshal.
G as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
a

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By
DEPUTY UNITED STATES MARSHAL

App. 20

Case 1:15-cr-10338-FDS Document 2381 Filed 05/01/18 Page 3 of 7
AO 245B (Rev. /1) Judgment in a Criminal Case
Sheet 3 — Supervised Release
Judgment—Page

DEFENDANT: DAVID LOPEZ
CASE NUMBER: 1: 15 CR 10338

3

of

7

- 027 - FDS

SUPERVISED RELEASE
Upon release from imprisonment, you will be on supervised release for a term of :

3 years.

MANDATORY CONDITIONS
1.
2.
3.

4.
5.

6.

You must not commit another federal, state or local crime.
You must not unlawfully possess a controlled substance.
You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests thereafter, as determined by the court.
G The above drug testing condition is suspended, based on the court's determination that you
pose a low risk of future substance abuse. (check if applicable)
✔ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
G

G You must comply with the requirements of the Sex Offender Registration and Notification Act ( U.S.C. § , et seq.) as
G

directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in WKHORFDWLRQwhHUH you
reside, work,are a student, or were convicted of a qualifying offense. (check if applicable)
You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any other conditions on the attached
page.

App. 21

Case 1:15-cr-10338-FDS Document 2381 Filed 05/01/18 Page 4 of 7
AO 245B (Rev. /1) Judgment in a Criminal Case
Sheet 3A — Supervised Release
Judgment—Page

DEFENDANT: DAVID LOPEZ
1: 15 CR 10338
CASE NUMBER:

4

of

7

- 027 - FDS

STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply with the following standard conditions of supervision. These conditions are imposed
because they establish the basic expectations for your behavior while on supervision and identify the minimum tools needed by probation
officers to keep informed, report to the court about, and bring about improvements in your conduct and condition.
1.
2.
3.
4.
5.

6.
7.

8.
9.
10.
11.
12.
13.

You must report to the probation office in the federal judicial district where you are authorized to reside within 72 hours of your
release from imprisonment, unless the probation officer instructs you to report to a different probation office or within a different time
frame.
After initially reporting to the probation office, you will receive instructions from the court or the probation officer about how and
when you must report to the probation officer, and you must report to the probation officer as instructed.
You must not knowingly leave the federal judicial district where you are authorized to reside without first getting permission from the
court or the probation officer.
You must answer truthfully the questions asked by your probation officer.
You must live at a place approved by the probation officer. If you plan to change where you live or anything about your living
arrangements (such as the people you live with), you must notify the probation officer at least 10 days before the change. If notifying
the probation officer in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72
hours of becoming aware of a change or expected change.
You must allow the probation officer to visit you at any time at your home or elsewhere, and you must permit the probation officer to
take any items prohibited by the conditions of your supervision that he or she observes in plain view.
You must work full time (at least 30 hours per week) at a lawful type of employment, unless the probation officer excuses you from
doing so. If you do not have full-time employment you must try to find full-time employment, unless the probation officer excuses
you from doing so. If you plan to change where you work or anything about your work (such as your position or your job
responsibilities), you must notify the probation officer at least 10 days before the change. If notifying the probation officer at least 10
days in advance is not possible due to unanticipated circumstances, you must notify the probation officer within 72 hours of
becoming aware of a change or expected change.
You must not communicate or interact with someone you know is engaged in criminal activity. If you know someone has been
convicted of a felony, you must not knowingly communicate or interact with that person without first getting the permission of the
probation officer.
If you are arrested or questioned by a law enforcement officer, you must notify the probation officer within 72 hours.
You must not own, possess, or have access to a firearm, ammunition, destructive device, or dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose of causing bodily injury or death to another person such as nunchakus or tasers).
You must not act or make any agreement with a law enforcement agency to act as a confidential human source or informant without
first getting the permission of the court.
If the probation officer determines that you pose a risk to another person (including an organization), the probation officer may
require you to notify the person about the risk and you must comply with that instruction. The probation officer may contact the
person and confirm that you have notified the person about the risk.
You must follow the instructions of the probation officer related to the conditions of supervision.

U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the conditions specified by the court and has provided me with a written copy of this
judgment containing these conditions. For further information regarding these conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant's Signature

Date

App. 22

Case 1:15-cr-10338-FDS Document 2381 Filed 05/01/18 Page 5 of 7

AO 245B(Rev. /1) Judgment in a Criminal Case
Sheet 3D — Supervised Release

DEFENDANT: DAVID LOPEZ

Judgment—Page

CASE NUMBER: 1: 15 CR 10338

5

of

7

- 027 - FDS

SPECIAL CONDITIONS OF SUPERVISION
1. You must not knowingly have any contact, direct or indirect, with the victims.
2. If ordered deported, you must leave the United States and not to return without prior permission of the Secretary of the
Department of Homeland Security.

App. 23

AO 245B (Rev. /1)

Case 1:15-cr-10338-FDS Document 2381 Filed 05/01/18 Page 6 of 7
Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties

DEFENDANT: DAVID LOPEZ
CASE NUMBER:

Judgment — Page

1: 15 CR 10338

6

of

7

- 027 - FDS

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.
Assessment
TOTALS

$ 100.00

JVTA Assessment*

$ 0.00

Fine

Restitution

$ 0.00

G The determination of restitution is deferred until

$ 0.00

. An Amended Judgment in a Criminal Case (AO 245C) will be entered

after such determination.

G The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Restitution Ordered

Total Loss**

Name of Payee

0.00

$

TOTALS

$

Priority or Percentage

0.00

G

Restitution amount ordered pursuant to plea agreement $

G

The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).

G

The court determined that the defendant does not have the ability to pay interest and it is ordered that:

G the interest requirement is waived for the
G the interest requirement for the

G fine

G fine
G

G restitution.

restitution is modified as follows:

* Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22.
** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or
after September 13, 1994, but before April 23, 1996.

App. 24

AO 245B (Rev. /1)

Case 1:15-cr-10338-FDS Document 2381 Filed 05/01/18 Page 7 of 7

Judgment in a Criminal Case
Sheet 6 — Schedule of Payments

Judgment — Page

DEFENDANT: DAVID LOPEZ
1: 15 CR 10338
CASE NUMBER:

7

of

7

- 027 - FDS

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

✔ Lump sum payment of $
G

G
G

not later than
in accordance with

100.00

G

C,

due immediately, balance due

G

D,

G

, or
E, or

B

G Payment to begin immediately (may be combined with

C

G Payment in equal

D

G Payment in equal

G F below; or
G C,

G D, or

G F below); or

(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a

term of supervision; or
E

G Payment during the term of supervised release will commence within

F

G Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
the period of imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

G Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

G The defendant shall pay the cost of prosecution.
G The defendant shall pay the following court cost(s):
G The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal, (5) fine
interest, (6) community restitution, (7) JVTA assessment, (8) penalties, and (9) costs, including cost of prosecution and court costs.

App. 25

1

1

UNITED STATES DISTRICT COURT
DISTRICT OF MASSACHUSETTS

2
3
UNITED STATES OF AMERICA

)
)
) Criminal Action
)
) No. 15-10338-FDS
)
)
)
)

4
vs.
5
6

DAVID LOPEZ,
Defendant

7
8
9
BEFORE:

THE HONORABLE F. DENNIS SAYLOR, IV

10
11
SENTENCING
12
13
14
15

John Joseph Moakley United States Courthouse
Courtroom No. 2
1 Courthouse Way
Boston, MA 02210

16
17

April 26, 2018
2:05 p.m.

18
19
20
21
22
23
24

Valerie A. O'Hara
Official Court Reporter
John Joseph Moakley United States Courthouse
1 Courthouse Way, Room 3204
Boston, MA 02210
E-mail: vaohara@gmail.com

25

Appendix C

App. 26

2

1

APPEARANCES:

2

For The United States:

3
4

United States Attorney's Office, KUNAL PASRICHA,
ASSISTANT UNITED STATES ATTORNEY, 1 Courthouse Way, Suite 9200,
Boston, Massachusetts 02110;

5

For the Defendant:

6

EDWARD L. HAYDEN, ESQ., 7 Franklin Street, Lynn,
Massachusetts 01902.

7
8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25

App. 27

3

1

PROCEEDINGS

2
session.

4

United States vs. David Lopez.

6
7
8
9

You may be seated.

MR. PASRICHA:

This Honorable Court is now in

Criminal matter 15-10338,

Good afternoon, your Honor,

Kunal Pasricha for the United States.
MR. HAYDEN:

Good afternoon, your Honor, Edward Hayden

for Mr. Lopez.
THE COURT:

Would you please swear the interpreter.

10

(The interpreter was sworn.)

11

THE COURT:

12

THE INTERPRETER:

13

THE COURT:

All right.

Good afternoon.

Good afternoon.

This is the sentencing of David Lopez.

14

I've received and read the pre-sentence report as revised

15

through March 13th, the defendant's sentencing memorandum,

16

which contained a number of exhibits, including letters from

17

supporters and the government's sentencing memorandum filed

18

March 23rd, and there is no plea agreement.

19
02:05PM

All rise.

3

5

02:05PM

THE CLERK:

To my knowledge, there are no other materials that

20

have been submitted to the Court.

21

should have seen that I have not?

22

MR. PASRICHA:

23

MR. HAYDEN:

24

THE COURT:

25

MR. HAYDEN:

Is there anything else I

No, thank you, your Honor.
I'm sorry, I didn't hear your Honor.

Is there anything you filed?
I filed an objection to the PSR.

That's

App. 28

4

1
2

THE COURT:

3

over the pre-sentence report.

4

go over it with the defendant?

5

MR. HAYDEN:

6

THE COURT:

7

THE DEFENDANT:

8

THE COURT:

9
02:06PM

02:07PM

part of it.
Yes.

Mr. Hayden, I know you have gone
Have you had an opportunity to

I have.
Is that correct, Mr. Lopez?
Yes.

All right.

Mr. Pasricha, are there any

victims present who wish to participate?

10

MR. PASRICHA:

11

THE COURT:

No, your Honor.

All right.

There is an objection to the

12

PSR as to whether the defendant was a manager or supervisor,

13

and then there's a subsidiary issue raised by the government as

14

to how that plays into the guideline calculation.

15

Mr. Hayden, do you want to be heard on that argument?

16

MR. HAYDEN:

17

THE COURT:

No, I just rely on my objection.
All right.

I think under the

18

circumstances, I agree with probation that the enhancement

19

applies, not the leader enhancement but a more intermediate

20

manager or supervisor enhancement.

21

evidence set forth at paragraph 35 concerning his role in the

22

clique and that he was a de facto manager after Tremendo was

23

arrested being the only homeboy in the clique who was on the

24

streets.

25

when he's in New Jersey and the actual management may have been

I think there is certainly

As Mr. Hayden has pointed out, for a period of time

App. 29

5

1

brief, but I think by a preponderance standard, I think I am

2

easily satisfied that he was a manager or supervisor, and the

3

enhancement is appropriate.

4

02:08PM

5

have avoided reaching in the past, but I think I need to reach

6

now as to how that three-level enhancement is applied in a RICO

7

circumstance, such as this, a RICO conviction.

8

Basically I agree with the Second and Seventh

9

Circuits' application in the Ivezha case, I-v-e-z-h-a,

10

568 F.3d 88 and Domico, D-o-m-i-c-o, 99 F.3d. 1431, that the

11

three-level enhancement should apply across the board.

12

seems to me otherwise it doesn't make sense.

13

put a person in a better position if you were a leader of a

14

racketeering conspiracy but didn't personally participate in

15

the individual acts or each of those acts involved five or

16

fewer people, you would wind up with a lower guideline range

17

than you otherwise would, and it doesn't seem to make any sense

18

to me.

19
02:09PM

There's a tricky issue under the guidelines, which I

It

It would actually

The way probation applied it, they applied it to one

20

offense but not the other.

I think it was applied in Group 2

21

but not Group 1.

22

that the right way to do it is to count it only once, to do the

23

calculation of the underlying offenses first, and then apply

24

the three-level enhancement.

25

I think that's a more sensible way to do it, but it doesn't

I don't think -- I think my take on this is

It's a Section 3 enhancement, and

App. 30

6

1

really matter if you apply it in the individual cases.

2

you wind up in the same place either way, so probation applied

3

it in one instance, not the other, so it was a 40 and a 38.

4

With two levels, you take the higher of that, and you wind up

5

with 42.

6

02:10PM

If you did it the way I think it ought to be done,

7

you'd start with 37 and a 35.

8

grouping, and it would take you to a 39, and another three

9

levels for role in the offense, and it would take you back to

You'd add two points for

10

42, so I don't need to decide which of those two is

11

appropriate, but I do think that, again, the Second and Seventh

12

Circuits have it right.

13

02:11PM

I think

I will acknowledge that there is considerable

14

ambiguity on this score, and probation apparently checked with

15

the Sentencing Commission staff, who indicated that the way

16

probation did it was right, but, again, I think the Second

17

Circuit has it right, and, in any event, in this case, I think

18

it makes no real difference, but, in any event, I think that's

19

how it ought to be done.

20

weigh in on that or clarify anything, Mr. Pasricha?

21

MR. PASRICHA:

Let me pause there.

No, your Honor.

Do you want to

I think either

22

approach, as your Honor indicated, leads to the same result,

23

and I think for purposes of the initial starting point, that

24

would result in a guideline calculation of 240 months, which is

25

what we believe to be correct.

App. 31

7

1
2

02:12PM

Mr. Hayden, anything you want to add to

that?

3

MR. HAYDEN:

4

THE COURT:

No, your Honor.
So then if our base offense level is 42,

5

the government, as I understand it, is willing to make the

6

motion to give the defendant the third level for acceptance of

7

responsibility?

8

MR. PASRICHA:

9

THE COURT:

That's correct, your Honor.

All right.

That motion is granted, and so

10

that brings us to a 39.

11

criminal history category is I.

12

range of 262 to 327 months, but the statutory max is 240

13

months, and so that is his guideline range, 240 months.

14

supervised release range is 1 to 3 years, the fine range is

15

$40,000?

His criminal history score is 0, his

16

PROBATION OFFICER:

17

THE COURT:

18

PROBATION OFFICER:

19
02:12PM

THE COURT:

20
21

That produces a guideline

The

Based on the Court's finding --

Yes.
-- it will increase to 50,000 to

250,000.
THE COURT:

50,000 to 250,000, but there has been no

request for restitution?

22

MR. PASRICHA:

23

THE COURT:

That's correct, your Honor.

And his special assessment of $100 is

24

mandatory, so I'm overruling Mr. Hayden's objection, and is

25

there any other correction or objection not previously raised?

App. 32

8

1

MR. PASRICHA:

2

THE COURT:

3

MR. HAYDEN:

4

THE COURT:

5

MR. HAYDEN:

6

02:13PM

THE COURT:

8

not sure it's true.

10

Your Honor, I just had one point.
Yes.
Your Honor was mentioning that it didn't

That may not be true.

MR. HAYDEN:

As I said it, I'm

Because I think their way, which resulted

in a range of 210 to 262.

11

THE COURT:

12

MR. HAYDEN:

13

so it does make a difference.

14

objection to your Honor's ruling on that and request that you

15

adopt probation's ruling, but I would waive argument on it.

16

THE COURT:

Right.
With your Honor's way, it's 240 to 262,

Okay.

17

to have misspoken.

18

you got to the lower number.

19
02:13PM

Mr. Hayden.

make any difference the ruling on the issue of probation.

7

9

No, your Honor, thank you.

I suppose I'll just offer an

Let me ask probation because I seem

The way probation calculates, remind me how

PROBATION OFFICER:

Because I only applied role to one

20

of the offenses, so the higher offense level was lower than

21

what the Court has found.

22

THE COURT:

Okay.

23

PROBATION OFFICER:

So I think there's no difference

24

in the calculation, whether you do it by adding role to each

25

group or adding role at the very end.

App. 33

9

1

THE COURT:

make any difference whether I added it twice in the role, in

3

the groupings, or only once at the end.

4

difference.
PROBATION OFFICER:

That doesn't make a

But the difference is that the

6

Court has made a finding that is higher than the PSR so that is

7

distinct.

8
9

myself.

THE COURT:

Okay.

Sorry to confuse everyone and

All right.

With that then as our starting point, let

10

me hear from the government as to its recommendation, and among

11

the things I would like the government to address and defense,

12

of course as well, is how the government's recommendation

13

squares with the recommendation for Mr. Menjivar where the

14

government recommended 156 months, which is what I imposed.

15

02:15PM

It doesn't

2

5

02:14PM

That's what I meant to say.

MR. PASRICHA:

Yes, your Honor, thank you.

And I'll

16

get to that shortly, but I think one of the key themes that

17

should hopefully emerge from my argument is as follows:

18

defendant in terms of what we can glean about his character

19

based on his actions in our opinion is one of the most

20

troubling cases of violence and one of the most troubling

21

defendants in this entire case.

22

This

The nature and circumstances of the offense as it

23

relates to his individual participation makes him different

24

from any of the other participants in the two underlying

25

racketeering acts.

App. 34

10

1

02:16PM

02:17PM

Let me begin with the attempted murder of Dennis

2

Perdomo Rodriguez.

3

was also involved in.

4

murder in the entire case.

5

about that, but, in short, there's an attack initially with a

6

knife with Mr. Menjivar, and he, for lack of a better way to

7

phrase it, guts the victim, and the victim's intestines are

8

essentially being held together by the first responder from

9

Chelsea PD, Star Chung, who you heard from at trial.

10

This is the one that Roca or Mr. Menjivar
That is quite possibly the most gruesome
Your Honor heard some testimony

This defendant then runs up and essentially tries

11

putting kill shots into the victim as he's laying there dying.

12

Just focusing on that for a second in our view, and I'd submit

13

to your Honor that shows an even more heinous, calluous attack

14

than the initial attack.

15

In fact, the PSR tried quoting some of the parts, some

16

of the recordings, but even Menjivar is struck by the nature of

17

the defendant's actions because on tape, he's essentially

18

saying, and the PSR and the offense conduct, I highlighted some

19

of the parts where he talks about this defendant having, "The

20

mind of a murderer" because what he says is, and this is --

21

I'll draw the Court's attention to paragraph 42, and what that

22

recording really shows is in describing the attack, Menjivar is

23

saying, "I had him pretty much dead, and he still ran up and

24

started shooting him."

25

He always has the mind of a murderer.

The guy was

App. 35

11

1

already on the ground all sliced up, and he still goes in and

2

shoots him.

3

I'd separately say though, however, as to Menjivar, I think the

4

Court was very troubled by the nature of the stabbing in

5

sentencing Menjivar, and I think your Honor on the record

6

referenced the fact that but for the government's

7

recommendation in that case, you would have been inclined to

8

sentence him higher.

9
02:18PM

Two vastly different situations.

First, Menjivar pled

10

substantially earlier than this defendant.

11

before jury selection.

12

secondly, as I mentioned, the nature and circumstances of the

13

offense are different, and when combined with this defendant's

14

role in the conspiracy to kill Clacker, CW-2, it makes him a

15

materially different defendant.

16

02:18PM

I think that alone is a distinguishing factor.

He pled the Friday

That makes him much different, but,

I want to focus, continue focusing for a second on the

17

shooting that we're talking about, and I'll note the PSR talks

18

about this defendant proudly boasting how he emptied his clip

19

into the victim who was lying there dead, a victim who, by the

20

way, your Honor, also heard from the ER physician during

21

Tremendo's trial, who said, and it's in the PSR, "The victim

22

had cardiac arrest and 'bled out.'"

23

medically speaking, was dead and had to be revived.

24
25

I mean, the victim,

To the extent the 20-year stab max is the defining
line between someone who has killed and someone who has not,

App. 36

12

1

I'd submit to you it is medically impossible to get closer to

2

the line of murder than this defendant got, and I want to focus

3

on that shooting for a second because in this case, if I may be

4

as bold as to make the following observation:

5

Judge in the United States who has had more insight and

6

exposure to MS-13 than your Honor has.

7

02:20PM

Often in finding comparable cases, we have to go

8

outside the district, and initially before there was

9

sentencings in this case, that's what we attempted to do to

10

find comparable sentences in similarly situated defendants.

11

don't have to do that here, so I want to take a few minutes to

12

compare him to the other two shooters that your Honor is most

13

familiar with.

14

We

For example, your Honor just sat through a multi-week

15

trial involving, Hector Enamorado, "Vida Loca," who was

16

recently found guilty of murder and who was held responsible

17

for that murder.

18

life.

19
02:20PM

There is not a

We expect that his guideline range will be

We expect we will ask for life.
As your Honor knows, the sentence in state court for

20

first-degree murder is life, and the federal guidelines make

21

clear that life is the appropriate sentence for a first-degree

22

murderer, but if you stop and reflect on it, as gruesome as the

23

Vida Loca murder was, what this defendant did in terms of the

24

nature and circumstances of his actions, what was in his mind,

25

what was in his heart was even worse.

It wasn't, you know, I

App. 37

13

1

had some fight with some guy, and I went back, maybe I was

2

drinking.

3

separately deal with that at sentencing, but in terms of the

4

Vida Loca shooting, he shot at the victim three times, and, you

5

know, once or twice where he put a kill shot into the dying

6

victim.

7

02:21PM

This defendant ran up.

The victim was already dying

8

by his co-defendant's words.

9

times, and he runs up just to make sure that he's finished the

10
11

Was bled, had been stabbed 21

job, and he empties his clip into a dying victim.
I'd submit to you that had the victim actually died,

12

that would have been an even more troubling order because as it

13

relates to his history and characteristics, his ability to be

14

rehabilitated, the danger he may pose, all of the 3553(a)

15

factors, in many ways, but for luck, his actions were actually

16

worse because as it relates to what he did and what he wanted

17

to do, it's a more troubling set of circumstances.

18

02:22PM

Obviously, that's a very troubling case, and we'll

The other example is this is the individual who shot

19

Katherine Gomez.

He's the other shooter your Honor has heard a

20

lot about, and in thinking about this sentencing, I was

21

reminded of the Attorney General's comments.

22

General of the United States came to this building and spoke in

23

this federal courthouse on September 21st, 2017.

The Attorney

24

The case against this defendant, Tremendo,.

25

Hector Ramires, they were all pending at that time, and it was

App. 38

14

1

National Gang Violence Prevention Week, and the Attorney

2

General was commenting on MS-13, and he says this community

3

knows firsthand MS-13 is probably the most violent and ruthless

4

gangs on the streets today.

5

violence their primary feature.

6

02:23PM

02:23PM

It has made inflicting gruesome

And moving on, he said one needs to look no further

7

than what has occurred here in Boston as proof positive of what

8

this gang is capable of, and we know that's true, but he then

9

ended some of his comments on MS-13 by saying the alleged gang

10

murder of a mother in front of her children, it simply does not

11

get any worse than this, and he was, of course, referring to

12

Hector Ramires.

13

And in many ways, that's true, and your Honor

14

reflected on that and commented on just what a troubling murder

15

that was, but in hearing the Attorney General's comments on

16

that day, I remember thinking that it is -- of course, the

17

Attorney General was correct in saying that, but what was

18

remarkable and a damming indictment on the violence in this

19

case is at that point, we actually believe that Hector Ramires

20

may not have been the most troubling person still sitting at

21

the defense table because on that day, this defendant was still

22

sitting at the defense table.

23

Hector Ramires shot at someone, who he believed to be

24

a violent gang member, shot once and inadvertently killed

25

someone.

He, of course, should have been held responsible for

App. 39

15

1

murder, but the reason it was 27 years and not life was our

2

attempt to put into context the nature of his shooting, and I'd

3

submit to you that the nature of this defendant's shooting was

4

much worse, was much troubling.

5

separates him even on that initial attempted murder from

6

Menjivar, and then I think that carries through with the

7

conspiracy to kill CW-2.

8
9
02:24PM

10

Your Honor, I'd remind the Court your Honor did not
hold Menjivar responsible because there was this doubt and
given the joint nature of the recommendation.

11

THE COURT:

12

MR. PASRICHA:

I didn't need to make a finding.
Correct, but your Honor on the record

13

stated that had you found that he was responsible or part of

14

that conspiracy, you would, again, have sentenced at the much

15

higher, and your Honor said that on the record.

16

defendant, there's no doubt as to his role in the conspiracy to

17

kill CW-2.

18

02:25PM

So that's what I would submit

With this

And, again, out of anyone who may have been involved

19

in that conspiracy, again, he is the most troubling person.

20

When it comes time for that gang to kill CW-2, who they believe

21

erroneously is cooperating with law enforcement, they go to get

22

this defendant to be the hit man.

23

Out of all of them, he's the guy they bring back to do

24

the job to commit the killing because he is the experienced

25

killer amongst them.

That's their view of why they're bringing

App. 40

16

1

him back.

2

back Villano, he's the serious guy, he's the one.

3

recordings.

4

talk about various ways to kill people.

5

them in our sentencing papers.

6

02:26PM

02:27PM

That's what the conversations say, we have to bring

You see him then come to the area.

You see the
You see him

We've cited some of

We have significant concerns about his past criminal

7

activity, which goes against his 3553(a) factors.

He's pretty

8

much on tape talking about ways he learned in El Salvador about

9

how to get away with murder and how to shoot people and how

10

there's a different way to kill people, maybe you stab them,

11

how there are ways to wrap wires around people's neck and

12

that's a better way.

13

That's what's happening with this defendant through

14

his words, so it's not just, well, he was also involved in a

15

conspiracy, it's a matter of I'd suggest part of the reason we

16

gave discounts to other people is because we were forced to put

17

a relative hierarchy of culpability, and I'd suggest that the

18

facts and circumstances of the case show that in every incident

19

that he was involved in, he was the most culpable and troubling

20

person.

21

And I want to talk about CW-2 briefly because,

22

respectfully, and part of it is probably, you know, our fault

23

because we focused so much on the violence, we forget, we often

24

forget to talk about him and his family.

25

He's not here today.

As your Honor knows, he is in the Federal Witness

App. 41

17

1

Protection Program.

2

in advance of this defendant's sentencing, and there are a

3

couple of things he has said over the years, over the months

4

that I think are worth relating to the Court.

5

1, his reaction when he first sees the tape that this

6

defendant is about, and what he's says stuck with me.

7

essentially has brought to tears, and he says, "They were

8

hunting me outside my house like an animal."

9
02:27PM

He

And I want to focus on that because the list of

10

victims in this case is broader than just CW-2 because we tried

11

to move Clacker, and he was a teenager, and you can imagine the

12

reaction when law enforcement knocks on his door and says,

13

"Hey, you've got to move.

14

you."

15

02:28PM

I spoke to him as recently as this morning

People are trying to come after

We failed to get his attention.

We had to go speak to

16

his father, and I want the Court to imagine what that was like,

17

to go to a father and to say you need to pack your bags, you

18

need to pack your bags for yourself, for your son, and you need

19

to come to the federal courthouse tonight.

20

your job, your son needs to give up his schooling, you need to

21

give up your friends, you need to give up your home, we need to

22

move you because we cannot figure out any other way to keep

23

your son alive.

24
25

You need to give up

In sum and substance, that's what we're talking about.
CW-2 and his entire family had to be moved because it wasn't

App. 42

18

1

just words, it wasn't just bluster, while we are trying to move

2

them to save their lives, this defendant is taking the lead in

3

figuring out how to kill them, all of it culminating in

4

April 28th of that year when for the first time CW-2 is brought

5

in to testify before a federal grand jury, and that's the day,

6

among others, where this defendant is found roaming the streets

7

in the car outside CW-2's house looking for him to kill him.

8
9
02:29PM

know, a lot of times the story of CW-2, especially on the

10

stand, is talking about, oh, hundreds of thousands of dollars,

11

benefits, et cetera.

12

has spent hundreds of thousands of dollars and years of effort

13

to keep him alive based on what this defendant and others were

14

caught on video doing.

15

02:30PM

So I want to emphasize that, too, because there's, you

He wasn't giving benefits, the government

And this defendant's role in that was, again, the most

16

troubling, so I think those are all distinguishing factors.

17

think not only have we attempted to make an individualized

18

determination across defendants and across incidents, but

19

within incidents, we've tried our best to assign culpability.

I

20

So the difference in response to your Honor's question

21

is as to the first incident, he was again more culpable, he was

22

more troubling.

23

his dangerousness, his lack of respect for the law, his lack of

24

respect for human life, you never want to kind of talk about a

25

person's ability or lack of ability to be rehabilitated.

It goes more to his propensity for violence,

I'd

App. 43

19

1

like to think everyone has that ability, but to the extent you

2

are again putting people on a spectrum, given his own words and

3

his own actions, he seems to us to be more troubling.

4

conspiracy to kill CW-2 is the same, again, most troubling.

5

02:31PM

And, lastly, I want to kind of get lost in the shuffle

6

a little bit, but I want to emphasize he did everything he

7

could to commit murder.

8

struggling to think of someone else of the defendants you've

9

seen who got promoted not for a murder.

He is one of the only people, and I'm

You've heard statement

10

after statement, witness after witness talking about how people

11

get promoted when they finally commit this murder in the

12

United States.

13

02:31PM

The

He did everything he could.

He gets promoted for that

14

murder, the attempted murder he's in because short of the

15

medical miracle, you know, even the gang essentially throws up

16

its hands to say, hey, you did everything you were supposed to

17

do, you pretty much killed him, we're going to reward you, and

18

we're going to make you a homeboy, so he is a leader.

19

only leader.

20

arrested.

21

again, it's not theoretical leadership.

22

He's the leader on the streets.

He comes back.

He's the

Tremendo gets

He's not only giving guidance,

Why do people get or why do people deserve leadership

23

enhancements, because they are in a position to shape, guide,

24

instruct more junior members.

25

because when he comes back as a homeboy, when he comes back as

Here, we have evidence of that

App. 44

20

1

a leader, not only is he giving them guidance, the guidance

2

he's giving them is helping them decide between whether to stab

3

CW-2 to death or put a metal wire around his neck to kill him

4

because that will be easier and make less noise or whether he

5

use a machete because or whether they should use a gun because

6

a gun is too loud, and that may not be the best way to kill

7

him.

8
9
02:32PM

That's the kind of guidance that this defendant is
giving to the more junior members, so I think based on all of

10

those factors, I think a 240-month sentence is appropriate.

11

I'd suggest that if his stat maximum was higher, we'd very

12

strongly consider asking for an even higher sentence.

13

guideline range absent the stat max obviously is higher.

14

Frankly, this defendant already benefited in some

15

ways, and we don't usually make this argument, but I just want

16

to kind of emphasize given we're up against the stat max, had

17

this case been charged differently, he'd be looking at a higher

18

stat max, right?

19
02:33PM

His

What he did was a violation of 18 U.S.C. 924(c) as an

20

example.

He discharged a firearm in a crime of violence, 10

21

years over and above any other stat max, right, so there are

22

ways to charge in all of that, but I only mention that to say

23

our sentencing recommendation happens to coincide with what I'd

24

submit to your Honor is an appropriate number given not just

25

his greater culpability than some of the people who got less

App. 45

21

1

than 20 years, but, frankly, he gets the benefit of being lucky

2

enough that unlike Hector Ramires, he didn't end up killing

3

someone, and so he gets seven years less than that for what I'd

4

submit to you is a more troubling and more gruesome attempted

5

murder and shooting.

6

02:34PM

7

the sentence of 240 months.

8

offense conduct, anything in 3553(a) warrants a downward

9

variance, which is what your Honor would have to give.

I do not believe anything in his

We

10

recognize it is highly, highly unusual to ask for a sentence at

11

a statutory maximum rate on a plea.

12

02:34PM

Based on all of those reasons, I'd ask you to impose

In fact, I don't ever recall doing it myself.

I know

13

it's unusual regardless of the kind of case, but in this case,

14

there are -- I think it speaks to how the government views this

15

defendant.

16

on a plea, we would have recommended that.

17

may be one, maybe two other people who on a plea, we would

18

recommend a statutory maximum.

19

defendant based on his own statements, what he has said about

20

his past, and what he has done and shown with his words.

21

I think there are one, maybe two people, who even
I think that there

That is how we view this

I'll end by saying we've gone back and forth as a

22

prosecution team, as an office to think about what to offer in

23

the alternative, do we ask your Honor, okay, give him five

24

months off, you know, ten months off, and I think as a

25

principal matter, I'd urge you to resist that break because

App. 46

22

1

he's already gotten a break, and, more importantly, I think the

2

3553(a) factors are extremely compelling.

3
4

who is again caught on tape saying the only thing he fears is

5

the justice system, he doesn't fear violence out on the

6

streets.

7

he says, the only thing I fear is jail.

8
9
02:35PM

That's one of the parts I quoted.

One of the things

We have direct evidence in this case that the
sentences that your Honor imposes are perhaps the only thing

10

that matters to defendants like this, and although the

11

government's prosecution of MS-13 is coming to a close in this

12

courtroom, we have five defendants left, I want to emphasize

13

that our efforts against MS-13 are not coming to a close out on

14

the street.

15

02:36PM

The other thing I had to mention, this is a defendant

Even in Massachusetts, and we have members of our law

16

enforcement partners, federal and state law enforcement

17

officers here in the courtroom, almost weekly, we get

18

intelligence reports of MS-13 members in Massachusetts trying

19

to reconstitute themselves, trying to come back to life after a

20

relatively decent period of reduced violence.

21

There may be increased violence as this gang

22

reconstitutes itself.

There is a compelling need, there may

23

not be a difference between 135 months and 140 months, but a

24

difference between 230 or 240 or whatever we would typically

25

give a discount is meaningful because it is meaningful to be

App. 47

23

1

able to say you commit acts like this, you commit pretty much

2

as close to murder as you can get, you patrol the streets

3

trying to hunt down teenagers like an animal, as like the

4

victim says, you will be prosecuted to the full extent of the

5

law.

6

02:37PM

02:38PM

We recognize there's typically a discount given.

7

have been more than willing to do that in other cases.

8

defendant pled the Friday before jury selection.

9

I'd suggest there's no reason to vary downward from the

10

We

This

Respectfully,

guideline, and I'd ask you to impose a sentence of 240 months.

11

THE COURT:

12

MR. HAYDEN:

All right.

Thank you.

Thank you, Judge.

Mr. Hayden.

I have to concede that

13

the two predicates are pretty bad, but that's not why they are

14

recommending the maximum on this, the 240 months.

15

common because he delayed in pleading guilty.

16

talking about his depravity or his dangerousness when they were

17

trying to get him to plead difficulty.

18

deal, he would have been right around the same time frame as

19

Menjivar if he had pled early, and that's why this is ramped up

20

to the 240 months, so not pleading guilty I don't disagree that

21

if someone pleads guilty early, they should get a benefit for

22

doing that, but just because someone delays in pleading guilty,

23

that doesn't mean that they are depraved and beyond

24

rehabilitation, and I think I should explain to your Honor why

25

he delayed in pleading guilty.

That's

No one was

He was going to get a

App. 48

24

1

02:39PM

2

relationship.

3

he was really pushing me to do is to cross the Ts and dot the

4

Is before he pled guilty.

5

prosecution could prove their case, and there are two things

6

about that attack on Perdomo that, Number 1, in the Mass.

7

General Hospital emergency room records, there is no mention of

8

Perdomo having been shot.

9

wounds.

10

He's already treated me with respect, and what

He wanted to be sure that the

All they talk about is the knife

Now, I brought those records, showed them to

11

Mr. Lopez, and he wanted to be sure that the kid was shot

12

because he is being charged with having shot him.

13

02:40PM

As your Honor is well aware, we have had a contentious

And so that -- you know, I tried to explain to him, I

14

went back and forth to Wyatt numerous times to explain to him

15

that's not really much of a defense at the trial, but he wanted

16

to be sure that there was some evidence that Perdomo had been

17

shot, and I was able to get the transcript from the trial where

18

the emergency room doctor testified, and he had been shot, but

19

that issue was a cause of the delay, not anything to do with

20

his violence or his depravity.

21

He wanted me to do my job and investigate that issue,

22

and that resulted in some delay.

Another issue relating to the

23

shooting of Perdomo, they have him on tape saying he emptied

24

the clip into Perdomo, six shots.

25

problem is that gun held nine -- I'm sorry, held eight.

I agree with that, but the
He was

App. 49

25

1

wrong about that, and that's something that we could have used

2

at the trial just to show that he was talking when he made that

3

statement.

4

02:41PM

02:42PM

Again, not much of a defense, but that is something

5

that he wanted me to investigate, and I did, I was finally able

6

to convince him that it wasn't a strong defense going forward,

7

and that's why he eventually decided to plead guilty, but it

8

resulted in a delay, and he shouldn't be judged for being

9

depraved because of the delay.

10

If they want to make that argument that he's this

11

uncontrolled, violent person beyond rehabilitation, it seems to

12

me that argument would have had a lot more validity if they

13

were making it when they were trying get him to plead guilty.

14

They are willing to make a deal with him then, and so I would

15

ask your Honor, he does not want me to make a recommendation

16

for a specific amount of time, but I would request that your

17

Honor give him something less than 240 months, something more

18

comparable with the other defendants in this case who have

19

gotten deals for atrocious behavior.

20

THE COURT:

21

Mr. Lopez, do you wish to address the Court before I

22
23

All right.

Thank you, Mr. Hayden.

impose sentence?
THE DEFENDANT:

Yes.

Your Honor, I apologize if I

24

don't speak in the most formal or perfect manner, as I've never

25

been in a situation like this, but I want to apologize, and I

App. 50

26

1

don't mean to justify with words what I've done, but I want to

2

be judged according to my actions and my participation, not

3

based on what somebody else might say because I was able to

4

hear what my accuser has been saying about me.

5

02:44PM

6

that, but I said many things just to portray being a tough

7

person.

8

but I just want to be judged based on my participation and to

9

apologize to the United States and to all the people whose

10

I truly accepted culpability because I am culpable,

peace I took from them.

11

I know that I can't give them back their peace through

12

a mere apology, but I've found God, and I have God in my heart.

13

I know that my responsibility is to apologize.

14

want to justify myself with words, but I just want to make a

15

reference to what the prosecutor said about me and reference as

16

well to the PSR and their characterization of me.

17

02:45PM

There are many things that I've said, and I accept

Like I said, I

I'm being accused with the fact that when Perdomo was

18

on the ground, I'm accused of emptying the clip or an actual

19

gun on him.

20

that I shot, and I accept that, I accept having done that, only

21

two bullets came out of that gun.

22

report, there isn't any showing of sustaining bullet wounds in

23

his body, however, there is a doctor's statement where it said

24

that he did have one bullet wound.

25

facts because when all these events happened, I was under the

Based on what I've seen in the evidence, the gun

And also, in the medical

I needed to find out the

App. 51

27

1

influence of drugs, and I simply needed to know what the

2

factual things were.

3

02:47PM

02:48PM

On one side, I needed to know what exactly had

4

happened.

5

was a bullet wound, and the doctor had said that the victim had

6

not sustained, being touched by bullets.

7

car and I was recorded, I was saying a lot of things, I was

8

saying a lot of bad things so that I would look like a tough

9

guy in front of other people when in reality those things never

10

I had heard that there was a statement that there

When we were in the

happened.

11

I truly hope that you don't think that I'm trying to

12

justify myself with words, but all the things I have heard in

13

terms of characterizing me are just very bad, and I understand

14

it.

15

well trying to portray myself and show myself as a tough person

16

and as a person worse than what I am.

The truth is I said those things, I said other things as

17

I would wish that the fact that whether I shot or not

18

Perdomo, that he was hurt or not, I truly don't know in my own

19

conscious whether he was hurt by a bullet.

20

and I didn't know.

21

with certainty that he was shot.

22

willing to pay according to what my actions were.

23

to say that I have become a new person, I have found Jesus

24

Christ.

25

It was very high,

I did know that I did it, I just don't know
Again, I apologize.

I'm

I would like

In reference to the leadership, had it truly been so,

App. 52

28

02:51PM

1

I would accept it in the same way that I have accepted making

2

many other mistakes, but I was never a leader.

3

way I did because I wanted for everyone to think what a tough

4

guy I was, but, in reality, none of those things actually

5

happened, which is I just want that everyone believe that I was

6

bad, but, I apologize, and I'm willing to accept the

7

punishment.

8

I know God at this time will help you make the right

9

decision in your heart because I know how powerful God is, as

10

he created the world, and his dominion is all-encompassing, but

11

I also understand that I made mistakes, and I know that I have

12
13

02:52PM

I spoke in the

to pay for them.

Thank you very much for listening to me.

THE COURT:

Thank you.

All right.

I'm going to start

14

by reminding myself, reminding everyone that Mr. Lopez is a

15

human being, that he comes from a background of poverty and

16

hardship and crime that is hard for people in this country to

17

imagine, and I fully recognize and appreciate the fact that

18

that poverty and violence pulls people in, including young

19

people, in a way that's very difficult for them to resist.

20

Having said that, he committed or participated in

21

committing a near murder.

It was not a murder only because of

22

a medical miracle, but the victim lost 100 percent of his

23

blood, but he had the good fortune to be transported in time to

24

one of the world's finest hospitals and survived, so it was

25

only an attempt instead of an actual murder, and the defendant

App. 53

29

1

also wanted to and conspired to and sought to commit a second

2

murder.

3

So certainly I start and maybe I wind up at the

4

proposition that a 20-year sentence, which is the statutory

5

maximum for someone who was prevented from committing a murder

6

only by a medical miracle is an appropriate sentence.

7

02:53PM

There are two issues that perhaps affect that

8

decision.

9

and it's certainly unusual, highly unusual, for anyone who

10

pleads guilty to receive a maximum sentence, and the other

11

reason is the sentence given to Mr. Menjivar, which was 156

12

months or 13 years.

13

02:54PM

One is the fact that the defendant pleaded guilty,

Mr. Menjivar did receive a 156-month sentence.

14

There's certainly no question that he stabbed Mr. Perdomo

15

Rodrigues multiple times, bragged about it afterwards.

16

proposed sentence here is, I think, more than 50 percent

17

higher, years vs. 20 years.

The

18

I, frankly, as I said at the time, would have imposed

19

a higher sentence on Mr. Menjivar had the government asked for

20

it.

21

recommendation for a variety of reasons.

22

government has to make deals, has to put its resources, which

23

are limited, where it thinks it will do best.

24

recommendation was low, but I did impose that sentence.

25

I did not feel it was appropriate to exceed the government
I recognize that the

I thought the

Mr. Menjivar's plea, of course, was much earlier.

App. 54

30

02:55PM

1

That does make a difference.

2

many months before the trial and effectively the day before.

3

There was no role enhancement for Mr. Menjivar.

4

any way an organizer or supervisor or manager of the gang.

He was not in

5

The various roles in the attempted murder of

6

Mr. Perdomo Rodrigues, the government has discussed, Mr. Lopez

7

himself has discussed, I don't think the issue is really

8

whether one bullet was fired or two or six, I think the

9

culpability is the same.

10

There was his role in the conspiracy to kill Clacker,

11

which the government has also discussed, which is I think a

12

significant difference, certainly the evidence is much stronger

13

here as to Mr. Lopez.

14

02:56PM

There is considerably to plead

The defendant did make a number of disturbing

15

statements on the tapes, how to kill people, for example.

16

sorry to hear that I'm the Judge with the greatest familiarity

17

with MS-13.

18

disturbing and grisly and pointless violence.

19

us become enured to it at some point, but even in that context,

20

I think the defendant's statements on the tape stand out.

21

I'm

I have had to endure a parade of evidence of
Perhaps all of

I recognize that there is a degree of bragging or

22

braggadocio involved in that.

I think virtually every person

23

recorded on these tapes has exaggerated their involvement,

24

their violence, what they have accomplished, and what they

25

intend to accomplish, and even taking that into account, again,

App. 55

31

1

I think these statements stand out.

2

02:57PM

3

could be.

4

idealogy, there's no wealth at the end of the day, it's not

5

triggered by consumption of drugs or alcohol, it's just

6

violence of the most extreme and pointless kind imaginable.

There's no reason for it.

There's no underlying

7

What about the fact that the defendant pleaded guilty?

8

Again, it is unusual, to say the least, to impose the statutory

9

maximum when someone has pleaded guilty.

The system is set up

10

to give people an incentive to plead, to give them a reward for

11

pleading.

12

risks discouraging future pleas, which is not how the system

13

operates or is intended to operate.

14

02:58PM

And, again, this violence is pointless as violence

The failure to give a discount for pleading guilty

I guess my response to that is the defendant was

15

offered a deal.

16

lives with the consequence of that.

17

represented by capable counsel.

18

The government made its motion for a guideline reduction, but

19

it was fairly late in the game, extremely late in the game, and

20

the defendant has not gained nothing.

21

He didn't take it.

That's his right.

He

He was certainly

The plea was late in the game.

Had he gone to trial, there is no possibility I think

22

I would even consider lower than a 20-year sentence, so he's

23

gained at the very least my careful and thoughtful attention

24

about what sentence to impose, not to suggest it wouldn't be

25

thoughtful otherwise, but it's hard to imagine had he been

App. 56

32

1

convicted at trial that I would give him anything less than the

2

20-year sentence.

3

03:00PM

03:01PM

So what do I do with all that?

I recognize both the

4

fact that his co-defendant received a 13-year sentence for

5

behavior that overlapped in part with his, and recognizing that

6

he did plead guilty and save the Court and the government

7

considerable resources and effort and trial risk.

8

nonetheless, conclude that the appropriate sentence is 240

9

months.

10

I don't do that lightly.

I,

It gives me some pause to do

11

it for the reasons I indicated, but I think under the

12

circumstances here, it's entirely appropriate given who the

13

defendant is, what he has done, the crimes he committed, his

14

role in the offense, his statements, and his other personal

15

characteristics.

16

course, it is harsh, had it not been for a medical intervention

17

bordered on a miracle, he would be looking and likely receive

18

life in prison.

And if that sentence seems harsh, and, of

19

So, that is the sentence that I'm going to impose.

20

is my practice, I'm going to formally state the reasons for

21

that sentence followed by a formal statement of the reasons.

22

As

When I've concluded, I'll give the attorneys a final

23

opportunity to make any objections or additions or corrections

24

to the sentence.

25

Is there a forfeiture issue here, Mr. Pasricha?

App. 57

33

03:01PM

1

MR. PASRICHA:

2

THE COURT:

All right.

If the defendant would please

3

stand.

4

of 1984 and having considered the sentencing factors set forth

5

at 18 United States Code, Section 3553(a), it is the judgment

6

of the Court that the Defendant David Lopez is hereby committed

7

to the custody of the Bureau of Prisons to be imprisoned for a

8

term of 240 months.

Pursuant to the pursuant to the Sentencing Reform Act

9

The Court makes a judicial recommendation that the

10

defendant participate in substance abuse treatment while in

11

Bureau of Prisons' custody.

12
13

Upon release from imprisonment, the defendant shall be
placed on supervised release for a term of three years.

14

Within 72 hours of release from custody of the Bureau

15

of Prisons, the defendant shall report in person to the

16

district to which he is released.

17
18

While on supervised release, the defendant shall
comply with the following terms and conditions:

19
03:02PM

Not as to this defendant, your Honor.

20

He must not commit another federal, state or local
crime.

21

He must unlawfully possess a controlled substance.

22

He must refrain from any unlawful use of a controlled

23
24
25

substance.
He must submit to one drug test within 15 days of
release from imprisonment, and at least two periodic drug tests

App. 58

34

1

thereafter, not to exceed 104 tests per year.

2
3

He must cooperate in the collection of a DNA sample as
directed by probation.

4

He must comply with the standard conditions that have

5

been adopted by the Court, which are set forth at Section

6

5D1.3C of the Sentencing Guidelines, and which will be set

7

forth in detail in the judgment.

8
9
03:03PM

He must not knowingly have any contact, direct or
indirect, with any victim of his offense, and if ordered

10

deported or removed, he must leave the United States and shall

11

not return without prior permission of the Secretary of the

12

Department of Homeland Security.

13

It is further ordered that the defendant shall pay to

14

the United States a special assessment of $100, which shall be

15

due immediately.

16

You may be seated.

17

the sentence, it is a guideline sentence imposed for the

18

reasons indicated.

19
03:03PM

In terms of the formal reasons for

Obviously, I expect that the defendant will be

20

deported.

If he is, the term of supervised release will help

21

assert greater control over him if he returns, and if he is

22

not, the term of supervised release will help ensure adequate

23

supervision.

24

I'm imposing no fine, as he's established he's unable,

25

and even with the use of a reasonable installment is not likely

App. 59

35

1

to pay all or part of the fine required under the guidelines.

2

I'm imposing no restitution because there has been no

3

request by an identifiable victim, notwithstanding the fact

4

that restitution is mandatory, so I'm imposing no restitution.

5

$100 special assessment is mandatory.

6
7

03:04PM

Do counsel have any addition or correction or
objection to that sentence not previously raised?

8

Mr. Pasricha.

9

MR. PASRICHA:

10

THE COURT:

11

MR. HAYDEN:

12

THE COURT:

13

as stated.

14

No, thank you, your Honor.

Mr. Hayden.
No, your Honor.
All right.

The sentence is hereby imposed

I'll give Mr. Lopez his advice of rights.

You can appeal your conviction if you believe that

15

your guilty plea was unlawful or involuntary or if there was

16

some other fundamental defect in the proceeding that has not

17

been waived.

18

some circumstances, particularly if you think the sentence was

19

contrary to law.

20

You have a right to appeal your sentence under

If you're unable to pay the costs of appeal, you may

21

ask permission to have those costs waived and appeal without

22

pain.

23

the entry of judgment, and if you request, the clerk will

24

immediately prepare and file a notice of appeal on your behalf.

25

You must file any notice of appeal within 14 days after

All right.

Is there anything further, Mr. Pasricha?

App. 60

36

1

MR. PASRICHA:

2

THE COURT:

3

MR. HAYDEN:

4

THE COURT:

5

MR. HAYDEN:

6

THE COURT:

7
8
9
03:05PM

No, thank you, your Honor.

Mr. Hayden.
No, thank you, your Honor.
Yes.
Nothing, your Honor.
All right.

I guess I'll say in

conclusion, Mr. Lopez, two things.
The first is I know you've had your differences with
your counsel, Mr. Hayden, but I do think he has done an

10

effective job representing you in this case, and if you're not

11

happy with your sentence, it's not his fault.

12

And, second, as I stated, I recognize, of course, that

13

you are human, that like all humans, you've made mistakes, that

14

you've come from a very difficult background.

15

you've earned your sentence because of what you've done, but I

16

certainly wish you no harm beyond that.

17

to pay is significant enough under the circumstances.

I believe that

The price you're going

18

With that, we'll stand in recess.

19

THE CLERK:

20

(Whereupon, the hearing was adjourned at 3:05 p.m.)

All rise.

21
22
23
24
25

App. 61

37

1

C E R T I F I C A T E

2
3

UNITED STATES DISTRICT COURT )

4

DISTRICT OF MASSACHUSETTS ) ss.

5

CITY OF BOSTON )

6
7

I do hereby certify that the foregoing transcript was

8

recorded by me stenographically at the time and place aforesaid

9

in Criminal Action No. 15-10338-FDS, UNITED STATES vs.

10

DAVID LOPEZ and thereafter by me reduced to typewriting and is

11

a true and accurate record of the proceedings.

12

Dated this 3rd day of August, 2018.

13

s/s Valerie A. O'Hara

14

_________________________

15

VALERIE A. O'HARA

16

OFFICIAL COURT REPORTER

17
18
19
20
21
22
23
24
25

App. 62

18 U.S. Code § 1962.Prohibited activities

(a) It shall be unlawful for any person who has received any income derived, directly
or indirectly, from a pattern of racketeering activity or through collection of an
unlawful debt in which such person has participated as a principal within the
meaning of section 2, title 18, United States Code, to use or invest, directly or
indirectly, any part of such income, or the proceeds of such income, in acquisition of
any interest in, or the establishment or operation of, any enterprise which is engaged
in, or the activities of which affect, interstate or foreign commerce. A purchase of
securities on the open market for purposes of investment, and without the intention
of controlling or participating in the control of the issuer, or of assisting another to do
so, shall not be unlawful under this subsection if the securities of the issuer held by
the purchaser, the members of his immediate family, and his or their accomplices in
any pattern or racketeering activity or the collection of an unlawful debt after such
purchase do not amount in the aggregate to one percent of the outstanding securities
of any one class, and do not confer, either in law or in fact, the power to elect one or
more directors of the issuer.
(b) It shall be unlawful for any person through a pattern of racketeering activity or
through collection of an unlawful debt to acquire or maintain, directly or indirectly,
any interest in or control of any enterprise which is engaged in, or the activities of
which affect, interstate or foreign commerce.
(c) It shall be unlawful for any person employed by or associated with any enterprise
engaged in, or the activities of which affect, interstate or foreign commerce, to conduct
or participate, directly or indirectly, in the conduct of such enterprise’s affairs
through a pattern of racketeering activity or collection of unlawful debt.
(d) It shall be unlawful for any person to conspire to violate any of the provisions of
subsection (a), (b), or (c) of this section.
(Added Pub. L. 91–452, title IX, § 901(a), Oct. 15, 1970, 84 Stat. 942; amended Pub.
L. 100–690, title VII, § 7033, Nov. 18, 1988, 102 Stat. 4398.)

Appendix D

App. 63

